       Office of Inspector General

        U.S. Department of Labor
Office of Information Technology Audits




    Strengthening OSHA’s Software
       Management Controls Can
         Prevent Unauthorized
       Software Use and Potential
            Software Piracy




            FINAL REPORT




                    Report Number: 23–02–005–10–001
                    Date Issued:   August 19, 2002
                                            TABLE OF CONTENTS

EXECUTIVE SUMMARY ...........................................................................................................1

BACKGROUND ............................................................................................................................2

OBJECTIVES, SCOPE, METHODOLOGY AND CRITERIA

      Objectives.................................................................................................................................3

      Scope.........................................................................................................................................3

      Methodology ............................................................................................................................3

      Criteria .....................................................................................................................................4

FINDINGS AND RECOMMENDATIONS

      I. Unauthorized Software Exists in OSHA ...........................................................................5

     II. Ineffective Software Management Policies and Procedures...........................................6

          A. OSHA Needs to Prepare an Authorized Software
               Inventory List and Keep It Current .......................................................................6

          B. Ineffective Controls Over Certification/Authorization Checklist Form .................7

          C. OSHA Does Not Monitor Outdated Software Product Versions .............................8

CONCLUSION ..............................................................................................................................9

RECOMMENDATIONS.............................................................................................................10

ACRONYMS................................................................................................................................11

GLOSSARY..................................................................................................................................12

RECONCILIATION OF OSHA’S AUTHORIZED SOFTWARE........................EXHIBIT A

SOFTWARE APPLICATIONS THAT APPEARED
   QUESTIONABLE BASED ON OIG ANALYSIS ...........................................EXHIBIT B

OSHA’S COMMENTS ON DRAFT REPORT................................................... APPENDIX A
                             EXECUTIVE SUMMARY

The Office of Inspector General (OIG) conducted an audit to determine whether the
Occupational Safety and Health Administration (OSHA) has proper procedures in place
to ensure authorized computer software products are not used in violation of copyright
laws, and whether unauthorized software products exist on the agency’s computers.

During our audit, we scanned 166 randomly selected computers in OSHA’s National,
regional and area offices, and OSHA’s Technical Center (laboratory) in
Salt Lake City, Utah. We found 221 unauthorized software products, including 27
different computer games. We found no violations of copyright laws for authorized
software products.

In addition to the potential software piracy issue, the installation and use of unauthorized
software products creates other unnecessary risks for OSHA, such as the possible
introduction of computer viruses. The use of unauthorized software can also degrade
computer functionality, as the unauthorized products consume memory and processing
time.

Inadequate software management policy and procedures contribute to the installation and
use of unauthorized software on agency computers. For example, OSHA does not
conduct periodic software inventories and, as a result, cannot maintain a complete and
accurate listing of unauthorized software.

To improve agency software management and prevent the installation of unauthorized
software products, we recommend that the Assistant Secretary for Occupational Safety
and Health:

1.     Remove all unauthorized software applications and games identified by our audit,
       including older version, software products. Legally purchased older software
       products should be removed from individual workstations and stored in a safe
       location.

2.     Develop and perform a periodic (at least once per year) software inventory and
       use this inventory to maintain an updated list of all OSHA authorized software.

3.     Revise and update OSHA Directive PRO 3.5 dated June 9, 1993, to include
       current hardware and software standards and establish procedures on the
       monitoring of information technology (IT) assets including a review of IT
       Acquisition forms and license agreements.

                                 ----       ----        ----

Based on OSHA’s response to the draft report, and the planned corrective actions, the
OIG has resolved all of the above recommendations. OSHA agreed to take steps for the
purpose of addressing and resolving OIG’s recommendations (Appendix A). However,


                                            1
OSHA has taken exception to the Webshots purchase example used by OIG in the draft
report. OSHA does not discourage the use of screen savers, and OSHA believes the
discussion of the Webshots purchase was unnecessary since it went beyond the stated
scope of the audit. While the OIG acknowledges OSHA’s request to delete the
discussion of the Webshots purchase, the OIG does not view the information as
extraneous to the audit report.

                                  BACKGROUND

Software piracy occurs whenever a software program is downloaded and installed, run, or
copied without a proper license from the software manufacturer.

Software vendors attempt to control the unauthorized use of their products through
license agreement provisions. Federal copyright statutes protect the license agreements.
The specific license agreement for each software product is explained in documentation
accompanying the system installation and program diskettes. License agreements specify
that each software program purchased be used on one computer at a time, at a site, or on a
Local Area Network (LAN).

One way in which software piracy can occur is if Department of Labor (DOL) employees
bring software applications from home or by downloading it from the Internet. In order
for DOL agencies to control and prevent software piracy, there must be a process in place
for identifying what the agency owns and what is allowed to be installed on government
computers. EO 13103 encourages government agencies to prepare software inventories
and determine which software products they are authorized to use.

The OSHA nationwide network, the OSHANET, provides employees with IT resources
to help them effectively perform their OSHA duties and responsibilities. The OSHANET
encompasses user workstations, servers, network devices, software, and data
communications equipment. OSHA’s Directorate of Information Technology is
responsible for the management and administration of the OSHANET.




                                          2
      OBJECTIVES, SCOPE, METHODOLOGY AND CRITERIA

OBJECTIVES

The objectives were to determine whether OSHA has the proper controls and procedures
in place to ensure computer software products are not used in violation of copyright laws,
and whether unauthorized software exists on the agency’s computers.

SCOPE

The audit was conducted in OSHA’s National Office and Technical Center in Salt Lake
City, Utah, and selected regional and area offices.

We scanned a total of 166 workstations, which included 104 in the National Office and
62 in OSHA regional and area offices in Chicago, Dallas, Philadelphia, San Francisco,
and OSHA’s Technical Center in Utah. Computers in the National Office, regional
offices, area offices, and the Technical Center were selected for testing based on a
random sample.

The audit was conducted during the period of May 30, 2001 through March 15, 2002. An
exit conference was held on March 18, 2002.

METHODOLOGY

The audit was conducted in accordance with Government Auditing Standards (GAS)
issued by the Comptroller General of the United States.

OIG used a software tool developed by Attest System, Inc., titled Gottlieb & Associates
Search Program (GASP 5.2) to test OSHA’s computers. Using this tool, OIG performed
a scan of 166 workstations in OSHA to detect whether unauthorized software was
installed on the computers. Specifically, we scanned a total of 104 workstations in the
National Office and 62 workstations throughout various regional and area offices to
determine whether any appeared unusual or suspect. The audit software was loaded on
the computer by inserting the audit disk in the computer’s floppy drive. As the program
is executed, it searches for all files containing programmed instructions associated with
software applications. The reporting module of GASP comes with a Software
Identification Database (SID), which allows it to identify which applications were found,
and its related information such as publisher, version and title. Upon completion of the
scanning process, analyses were performed to identify unauthorized software products.

We requested a list of authorized software and supporting documentation from OSHA in
an attempt to create a software profile. OSHA’s list of 18 software titles, however, was
not detailed or comprehensive enough to allow scanning using the GASP profiling
feature. As a result, we were not able to generate exception reports for software products
not matching the profiled information. Our procedure, instead, consisted of scanning
individual workstation computer “C” drives to capture all software products contained in


                                          3
each individual workstation computer. This resulted in extending the audit’s period of
performance.

A list of software products found to be unusual by OIG was submitted to OSHA for its
review and determination as to whether the software was authorized for use in the agency
and whether accompanying documentation (i.e., license agreements, purchase orders,
requisitions, and approval forms) existed. OSHA’s review resulted in its providing us
with additional documentation that increased the original list of authorized software
products from 18 to 145, an increase of 127 products.

The additional 127 software products, with the accompanying documentation, were
reviewed by OIG to determine whether the additional software products corresponded to
OIG’s list of software identified as unusual (Exhibit A).

In establishing audit results, a distinction is made between copies of software and number
of software packages. The number of copies found for the games in OSHA is the total
occurrences of games found, i.e. the same game may be counted more than once as it
appears on more than one computer. The number of software packages only counts a
particular application once (per geographical location) regardless of how many times it
was found on different computers (Exhibit B). OIG does have the information available
should OSHA need to know specifically how many copies were found for each software
application. However, for the purpose of presenting the results in Exhibit B, OIG does
not show the number of copies found.

In addition to scanning, our assessment was limited to policies and procedures covering
internal controls relative to copyright/licensing requirements and software authorized for
use on individual workstations.

CRITERIA

We used as criteria for this audit the U.S.C. Title 17, Chapter 5, Copyright Law
Infringement and Remedies; Executive Order (EO) 13103, Computer Software Piracy;
the Department of Labor Manual Series (DLMS-9) Chapter 1200, Microcomputer and
LAN Management ; OSHA Directive (PRO 3.5) – End-User Computer (EUC) Policy; and
OSHA Directive (ADM 1-0.19) OSHANET Acceptable Usage Policy.

U.S.C., Title 17, section 504 (as limited by 28 U.S.C. 1498 (b)) states that a civil action
may be instituted against the Federal Government for actual damages.

EO 13103 relating to computer software piracy states that it shall be the policy of the
United States Government to work diligently to prevent and combat computer software
piracy to prevent the violation of applicable copyright laws.

OSHA Directive PRO 3.5 establishes policy, guidelines, standards and procedures, and
assigns roles and responsibilities for the acquisition of End-User Computer (EUC)




                                            4
resources including stand-alone workstations, laptop comp uters, and associated software
and peripherals for amounts not exceeding $2,500.

OSHA Directive ADM 1-0.19 OSHANET, Acceptable Usage Policy, describes and sets
forth guidelines for use of OSHANET and any of its resources. Software products not
properly licensed and authorized for use by OSHA should not be installed or run on any
OSHANET workstation or server according to OSHA policy.

                  FINDINGS AND RECOMMENDATIONS

OIG found that unauthorized software products and copies of games reside on OSHA’s
computers, and that OSHA needs to strengthen controls over software management
policies and procedures.

I. UNAUTHORIZED SOFTWARE EXISTS IN OSHA

During our audit, we scanned 104 workstations in the National Office and 62
workstations in vario us regional and area offices, and OSHA’s Technical Center in Salt
Lake City, Utah. Our analysis of the results of these computer scans identified the
following unauthorized software products:

Applications

‘ 194 software applications were determined to be unauthorized based on the
  information provided by OSHA (Exhibit A) after review of 203 questionable software
  applications (Exhibit B);

Games

‘ 136 copies of 19 different Microsoft Corporation software games were found on
  workstations; and

‘ 30 copies of 8 different software games by various software publishers other than
  Microsoft Corporation were found on workstations.

OSHA DIT stated that, in accordance with OSHA’s policy, games should not be installed
on workstations. OSHA stated that games were allowed in the past for users to practice
mouse and cursor movement, but remarked that OSHA has not gone back to disable the
operating system option that gives the users access to this function.

OSHA Directive, ADM 1-0.19 – OSHANET Acceptable Usage Policy, Chapter X –
paragraph B, items 4 and 11 state that playing games and loading unauthorized or
personal software is considered non-acceptable personal use.

The use of unauthorized software creates unnecessary risks for the agency. In addition to
the potentia l software piracy issue, the use of unauthorized software can lead to the


                                          5
introduction of viruses, and degradation of computer functionality, as memory and
computer processing are allocated to users of unauthorized software.

II. INEFFECTIVE SOFTWARE MANAGEMENT POLICIES AND
    PROCEDURES

OIG found key areas that can improve OSHA’s ability to manage agency software.
These areas include taking a periodic software inventory, establishing an effective
mechanism for the certification and authorization of software, and monitoring and
replacing versions of software products as software updates are introduced.

A. OSHA Needs to Prepare an Authorized Software Inventory List and Keep It
   Current

The OIG identified 203 questionable software products on OSHA’s computers as a result
of scanning. OIG then requested confirmation from OSHA on the legitimacy of the 203
specific questionable (potentially unauthorized) software applications.

Since OSHA does not have a software inventory, OSHA was not able to directly address
OIG’s list of 203 software applications. Instead, OSHA chose to use supporting
documentation from all previously authorized software covering its National, regional
and area offices, and provided this information to OIG. OIG used this information in its
analysis of OSHA approved software in lieu of an agency software inventory.

EO 13103 relating to computer software piracy states that:

       Each agency shall establish procedures to ensure that the agency has present on its
       computers and uses only computer software not in violation of applicable
       copyright laws. These procedures may include:

               A. Preparing agency inventories of the software present on its
                  computers.

               B. Determining what computer software the agency has the
                  authorization to use.

In addition, OSHA’s own EUC policy (PRO 3.5) states “Federal regulations and
Departmental policy require OSHA to maintain an accurate inventory of all information
technology acquisitions.” It states that those acquisitions “include freeware and
shareware” and that the Office of Management Data Systems (OMDS) is responsible for
maintaining OSHA’s information technology inventory.

By not having a complete, up-to-date inventory, OSHA does not know what is installed
on its computers and is unable to ensure computer software products are used in
accordance with software copyright laws, licenses, and agency standards.




                                          6
B. Ineffective Controls Over Certification/Authorization Checklist Form

During the audit, OSHA provided documentation supporting legal ownership of its
software products. OIG noticed that the forms used to authorize and certify the
acquisition of EUC resources not exceeding $2,500 were not always signed, and lacked
appropriate information for the purpose of justifying related acquisitions.

1. Forms not always signed

OSHA uses a Certification/Authorization Checklist Form that is used to identify the need
and justification for acquiring software. The use of this form appears to be inconsistent
and not serving the purpose intended by OSHA’s policy.

The form is to be approved by the appropriate Directorate Head in the National Office,
and should be approved by the Regional Administrators for area, district, and regional
offices. OIG observed, however, the forms are not always signed. For example, all
signature lines are left blank on some forms, and only the area office official signed
others.

OSHA’s policy (PRO 3.5 – End-User Computer –EUC Policy) states that:

       EUC requests are to be submitted by Area, District, and Regional
       Office managers to the appropriate Regional Administrator for review,
       approval and processing.

An unsigned Certification/Authorization form indicates that a request for a particular
software application has not been properly authorized, and that OSHA is not
implementing internal controls consistently.

2. Insufficient justification

The Certification/Authorization Checklist Form does not clearly justify software
application needs. The “Justification” section of the form is a blank that is to be filled in
by a one word description of the reason why the software is necessary and required. In
one case, OIG observed that one software application authorized through the use of this
form was Webshots by The Webshots Corporation. The justification for this software
being required to benefit the agency is that it is necessary to “perform screensavers.”
Webshots allows individuals to customize screensavers, wallpaper and electronic
postcards, as well as download photos in Webshots photo albums. The purchase of
screensavers would not be required as this function is available through the Windows
desktop properties.

OIG also found there are potential threats associated with applications such as Webshots.
Webshots was downloaded on one of OIG’s computers for test purposes. After removing
the application, we noticed problems with our system. For example, launching the web
browser automatically opened the Webshots company website as opposed to the normal



                                            7
OIG homepage. Further, the operating system Internet options settings were disabled
preventing the user to reset the normal default. The problem required the intervention of
OIG’s computer assistance division to fix the problem.

OSHA’s policy (PRO 3.5 – End-User Computer –EUC Policy) establishes identification
of needs and justification criteria by stating that:

       Decisions to acquire new EUC resources (smaller than $2,500) shall
       be based upon individual, workgroup and program needs, established
       priorities and existing resources. Furthermore, needs shall be
       presented in the form of a written justification that is based on
       increased efficiency, improved effectiveness, or innovation. The same
       criteria are followed for freeware and shareware.

Without having sufficient information to make a decision on whether to approve a
particular application, the approving official may be certifying software that is not
necessary for the benefit of the agency. For example, the one word description used for
stating the reason for acquiring Webshots was not enough for OSHA to properly assess
the necessity of this application. The approving official would need more details on the
functionality, features, utility, and nature of this software.

C. OSHA Does Not Monitor Outdated Software Product Versions

The original list of authorized software applications given to OIG auditors was composed
of version specific applications. However, our audit showed that some software
applications installed on OSHA’s computers included various versions of the same
application. The following example illustrates this point:

‘ OIG found 5 copies of WordPerfect for DOS 5.1 on 4 computers in the National
  Office, i.e., one computer had 2 copies of WordPerfect for DOS 5.1.

‘ OSHA’s original authorized list of software application included WordPerfect 8.0 as
  the authorized version. We expected we would find WordPerfect 8.0 to be the
  standard word processing software installed on OSHA computers. However, we
  found WordPerfect versions DOS 5.1, 6.1c, 7.0.1a, and 8.0.

OSHA’s Directive (PRO 3.5) includes a section on Compatibility and Connectivity
Standards and Guidelines. In this section, it is stated “. . . to bring OSHA into
compliance with Federal regulations and the Department ‘ITA-2000’ initiative, the
Agency has established three basic categories of EUC resources.”

“OSHA Standard EUC Resources” outlines what software products are authorized for use
in OSHA. OSHA’s standard software includes a list of version specific software
products, such as WordPerfect 5.1, and Lotus 1-2-3 Version 3.1. OIG observed that
OSHA’s computers contained multiple versions of various software products (as
identified on Exhibit B). OSHA does not appear to be following its own policy. This



                                          8
directive and standards contained within, however, are old and outdated, i.e., OSHA
Directive PRO 3.5 is dated June 9, 1993.

Uniformity and software version control are important when implementing standards in
order for users to be able to seamlessly exchange data. For example, OSHA maintains
WordPerfect DOS 5.1 but the agency’s standard is WordPerfect 8.0. Also, some
software products that are available as shareware, for instance, specifically state that the
publisher does not have an obligation to support previous (older) versions of its products.
For example, the Acrobat Reader’s licensing agreement states the following:

       If the Software is an Update to a previous version . . . you may
       continue to use the previous version of the Software on your computer
       after you receive the Update to assist you in the transition to the
       Update, provided that . . . you acknowledge that any obligation Adobe
       may have to support the previous version of the Software may be
       ended upon availability of the Update.

OSHA has expressed concern over the need to remove older software applications.
OSHA believes its decision to support the older applications is acceptable since the
agency legally purchased the software.

If OSHA legally purchased software, which is currently outdated and not part of the
standards, it would be best to remove the software from individual workstations and store
the program disk(s) in a safe location. The applications can be accessed and installed
temporarily should OSHA have a need for this application that cannot be met by newer
authorized standard versions. In addition, having everyone using the latest version of a
software product prevents potential problems associated with technical support of
outdated versions.

                                    CONCLUSION
Our audit found that unauthorized software products exist in OSHA and ineffective
software management policies and procedures that need to be revised to include new
hardware and software standards as well as proper inventory procedures.

OSHA will benefit from strengthening its software management controls by ensuring the
prevention of unauthorized software use and potential software piracy. OSHA has
recognized this benefit by stating it is committed to follow OIG recommendations in
order to improve software management.




                                           9
                            RECOMMENDATIONS

We recommend the OSHA’s Assistant Secretary take the following corrective measures
to improve the agency’s software management:

1.     Remove all unauthorized software applications and games identified by our audit,
       including older version, software products. Legally purchased older software
       products should be removed from individual workstations and stored in a safe
       location.

2.     Develop and perform a periodic (at least once per year) software inventory and
       use this inventory to maintain an updated list of all OSHA authorized software.

3.     Revise and update OSHA Directive PRO 3.5 dated June 9, 1993, to include
       current hardware and software standards and establish procedures on the
       monitoring of IT assets including a review of IT Acquisition forms and license
       agreements.

Management Comments

OSHA’s Assistant Secretary provided comments in reference to the above
recommendations on July 15, 2002. OSHA has taken exception to the Webshots
purchase example used by OIG in the draft report. OSHA does not discourage the use of
screen savers, and OSHA believes the discussion of the Webshots purchase was
unnecessary since it went beyond the stated scope of the audit. While the OIG
acknowledges OSHA’s request to delete the discussion of the Webshots purchase, the
OIG does not view the information as extraneous to the audit report. OSHA’s comments
have been included as part of this report in Appendix A.

OIG Response

Although OSHA disagrees with OIG about the issues concerning older version software
products and screensavers, the OIG has resolved all of the above recommendations based
upon OSHA’s planned corrective actions, and will continue to work closely with OSHA
to bring each to closure.




                                         10
                 ACRONYMS

ADM        Administrative Directive

CIO        Chief Information Officer

DIT        Directorate of Information Technology

DLMS       Department of Labor Manual Series

DOL        U. S. Department of Labor

DOS        Disk Operating System

EO         Executive Order

EUC        End User Computer

GAS        Government Auditing Standards

GASP       Gottlieb & Associates Search Program

IT         Information Technology

ITA-2000   Information Technology Architecture - 2000

LAN        Local Area Network

OIG        Office of Inspector General

OMDS       Office of Management Data Systems

OSHA       Occupational Safety and Health Administration

OSHANET    Occupational Safety and Health Administration Network

PRO        Procedure Directive

SID        Software Identification Database

U.S.C.     United States Code




                      11
                                    GLOSSARY

Copyright :

                     Form of statutory protection, which allows its owner the exclusive
                     right to cont rol, among other things, the copying, distribution and
                     preparation of derivative works of authored materials.
                     International treaties and laws in most countries provide for
                     protection of software under copyright provisions.

Software license agreement :

                     Legal agreement between a software user (the licensee) and the
                     software developer that sets the terms and conditions under which
                     the software and its accompanying materials may be used.

Types of licensing agreements:

                     Stand-alone licenses are commonly used to describe two types of
                     licensing arrangements: a machine license that restricts use to a
                     particular computer, and a single- user license that restricts use to
                     an individual.

                     Site licenses (also referred to as building licenses) permit the
                     licensee to make as many copies as needed, provided they are used
                     at just one site or building.

                     District licenses allow the licensee to put multiple copies of the
                     software on personal computers located in offices throughout the
                     organization. In some instances, the licensee must specify the sites
                     or offices where the software will be used.

                     Network licenses (also referred to as file-server licenses) permit
                     the licensee to install the software on a file server. In some cases,
                     the licensee may restrict the numbers or location of computers on
                     the local area network.

                     Volume licenses allow the licensee to have a specific number of
                     users within either an office site or an entire organization. This
                     number is often based on average daily attendance.




                                         12
